GROWTH IN HIGHWAY CONSTRUCTION AND
        MAINTENANCE COSTS
        Federal Highway Administration

         Report Number: CR-2007-079
        Date Issued: September 26, 2007
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Report on the Growth in                      Date:    September 26, 2007
           Highway Construction and Maintenance Costs
           Report Number CR-2007-079
  From:    David Tornquist                                        Reply to
                                                                  Attn. of:   JA-50
           Assistant Inspector General
            for Competition and Economic Analysis

    To:    Federal Highway Administrator

           The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy
           for Users (SAFETEA-LU), enacted in August 2005, provides $244.1 billion for
           highway and transit projects for fiscal year (FY) 2005 through FY 2009. Within a
           year of its enactment, dramatic cost increases led some state planners to cancel or
           delay highway projects due to insufficient funds. An April 2006 survey by the
           American Association of State Highway and Transportation Officials (AASHTO)
           confirmed this trend, with 42 states and the District of Columbia indicating that
           they were witnessing significant growth in the costs of their highway projects.
           This rapid cost escalation has significant implications for the funding levels
           needed in the next highway bill to maintain or expand highway construction
           nationwide.

           In September 2006, the House Committee on Transportation and Infrastructure
           requested that the Office of Inspector General analyze the growth in highway
           project costs. Our objectives were to determine: (1) the extent of recent cost
           increases for highway construction and maintenance projects, (2) whether the cost
           increases are the product of transitory factors or indicative of longer term
           structural changes that need to be incorporated into future transportation funding
           plans, and (3) the degree to which the cost increases are subject to regional
           variations.

           In conducting this performance audit, we examined both national and state data on
           highway construction and maintenance costs. In addition, we analyzed a range of
           supporting information, such as data on the number of bidders per project, industry
           profit margins, and wages. Further, we interviewed experts on each of the major
           categories of commodity inputs used in highway construction and maintenance, as


                                                    i
well as on the highway construction industry. We performed this audit in
accordance with Generally Accepted Government Auditing Standards prescribed
by the Comptroller General of the United States with the exception of the data
quality standards. We did not systematically audit or validate the data used for
this report. However we conducted checks of the data to assess reasonableness
and comprehensiveness and concluded that the data, despite shortcomings, was
sufficient to support our findings. Exhibit A more fully describes our scope and
methodology.


RESULTS IN BRIEF
We found that highway construction and maintenance costs nationwide grew
approximately three times faster from 2003 through 2006 than their fastest rate
during any 3-year period between 1990 and 2003, substantially reducing the
purchasing power of highway funds. These increases are largely the result of
escalation in the costs of commodities used in highway projects, such as steel and
asphalt, and reflect structural,1 not transitory, economic changes. Consequently,
we expect these commodity costs to remain elevated, and possibly continue
expanding, in the near term. Finally, we found that highway project cost growth
varied across states due primarily to differences in costs of transporting
commodity inputs.

Continuing elevated highway construction costs will create a significant challenge
for both Congress and the Administration as they consider, in the next highway
bill, how best to maintain and improve the nation’s aging highway infrastructure.
Higher construction costs have significantly reduced the purchasing power of
current highway funding. The next highway bill may need to provide a significant
increase in funding just to maintain, let alone exceed, the volumes of highway
construction and maintenance undertaken prior to 2003.

Highway construction and maintenance costs have soared in recent years.
Figure 1 shows the escalation in the two major national indices2 of highway
construction and maintenance costs: the Federal Highway Administration Bid
Price Index (FHWA BPI), and the Bureau of Labor Statistics bridge and highway
construction producer price index (BHWY PPI).3 The FHWA BPI increased 47.7
1
    In this setting, structural economic changes are either lasting modifications in the demand for these commodities, or
    long-term reductions in their supply.
2
    Indices are a common means of measuring inflation. Most indices discussed in this report track the cost of
    purchasing fixed quantities of inputs to highway projects over time. The costs in an index are scaled to have a value
    of 100 in a base year. This facilitates calculation of the percentage inflation in the costs tracked since the base year.
    For example, an index level of 120 indicates that costs have risen 20 percent since the base year.
3
    The FHWA BPI tracks the installed prices of several components to highway construction (that is, it includes other
    costs such as labor and overhead as well as materials costs). The BHWY PPI only tracks the costs of materials used
    in highway construction. For more information on these indices, see the Data Reliability section in exhibit A.


                                                              ii
percent from 2003 through 2006, 3 times greater than its largest growth in any 3-
year period between 1990 and 2003 (16 percent). The BHWY PPI’s 35.3 percent
growth from 2003 through 2006 was 3.2 times greater than its largest increase,
10.9 percent, over a 3-year span between 1990 and 2003. We found similarly
dramatic cost increases in state-level data. See exhibit A for a discussion of the
shortcomings of the FHWA BPI, which the Federal Highway Administration
(FHWA) has announced that it would be discontinuing.


   Figure 1. National Highway Construction and Maintenance
                         Cost Indices*

                  250


                  225


                  200
    Index level




                  175


                  150


                  125


                  100
                        1990   1992   1994   1996         1998    2000   2002   2004   2006

                                             FHWA BPI            BHWY PPI

*These indices have been scaled to equal 100 in 1987.

Highway project cost growth has substantially reduced the purchasing power
of highway funds provided in SAFETEA-LU. A dollar will have lost between
37 and 60 percent of its value between 2005 and 2009, if highway project inflation
continues at its 2006 pace. Under these circumstances, the $42 billion provided in
SAFETEA-LU for 2009 Federal-aid to highways will only be equivalent to
between $16.8 billion and $26.6 billion in 2005 dollars.

Growth in the costs of commodity inputs has been the primary driver of the
recent increases in highway construction and maintenance costs.
Nationally, prices have risen dramatically since 2003 for each of the major
commodity groupings used as inputs in highway projects. These include
aggregate (any of various loose particulate materials, such as crushed stone or
gravel), asphalt, cement, and steel. Excavation and embankment costs have also
risen dramatically during this time, but have contributed less to recent highway
cost growth as they constitute a smaller share of project costs than commodity
inputs.

                                                    iii
The state data we examined support the national trends. For example, figure 2
shows the unusually large growth in commodity input costs in the state of
Washington since 2003. In this instance, the costs of hot mix asphalt grew by
64.2 percent from 2003 through 2006, as opposed to 9.8 percent from 2000
through 2003. The results were largely the same for the other states in our sample,
which was designed to include representation from as many regions of the country
as possible. (See exhibit B for information on the states included in our sample.)


          Figure 2. Growth in Commodity Input Costs for Highway
                     Construction in Washington State*

                    250


                    200
      Index level




                    150


                    100


                    50


                     0
                          1990     1992     1994     1996        1998   2000      2002      2004        2006

                                 Crushed Surfacing (Aggregate)          Hot Mix Asphalt (Asphalt)
                                 Structural Concrete (Cement)           Steel Reinforcing Bar (Steel)

*All indices were scaled to equal 100 in 1990.

We found no evidence that other elements of highway construction and
maintenance costs exhibited comparable growth during this time. For example,
wages for workers engaged in heavy and highway construction have increased
gradually. Likewise, insurance and engineering costs have increased only to a
limited extent. Further, we found no evidence to indicate that highway
construction firm profit margins were an underlying cause of the recent surge in
overall highway project costs. However, the information available on them was
limited.

According to industry analysts, structural economic changes have been the
driving force behind the escalation in commodity input costs. The industry
analysts we interviewed noted that the following structural economic changes are
occurring in the markets for the commodities used in highway projects:



                                                            iv
 • The per capita supply of steel scrap, the primary input to the production of
   steel used in highway projects, is falling. At the same time, international
   demand for scrap is growing.

 • Higher prices for higher grade fuel products are inducing refineries to increase
   the efficiency of their production processes, resulting in less production of by-
   products, such as asphalt.

 • The price of cement is following the shift to higher oil prices, as its production
   is a highly fuel-intensive process.

 • Aggregate is becoming increasingly unavailable as a result of spreading urban
   and suburban development reducing opportunities for its extraction.

Consequently, the costs of these commodities can be expected to remain elevated,
and possibly continue to escalate, in the near term.

The extent of the increases in commodity input costs differed significantly
across states. For example, the increases in the costs of structural concrete were
much higher in some states than in others. According to industry experts, these
variations in costs resulted primarily from differences in transportation costs.
Each of the commodity inputs to highway projects either requires special handling
to be transported or is very heavy or cumbersome. As a result, transportation costs
tend to comprise a substantial share of total commodity input costs.


ACTION REQUIRED
This report does not include recommendations. Accordingly, our findings are not
subject to follow-up review. However, we intend to raise with FHWA, under
separate cover, the need for accurate highway construction cost data and the
challenges FHWA and states face in developing such data.

We appreciate the courtesies and cooperation of the government and private sector
representatives that provided assistance during this audit (see exhibit C). If you
have any questions concerning this report, please call me at (202) 366-9970 or
Betty Krier, the Project Manager, at (202) 366-1422

                                         #

cc: Audit Liaison, OST, M-1
    Audit Liaison, FHWA, HAIM-13




                                         v
                        TABLE OF CONTENTS

FINDINGS_________________________________________________ 1
  Highway Construction and Maintenance Costs Have
  Grown Dramatically in Recent Years ..................................................... 1
  Highway Construction and Maintenance Cost Growth Has
  Substantially Reduced the Purchasing Power of Highway
  Funds….................................................................................................. 3
  Growth in the Costs of Commodity Inputs Has Been the
  Primary Driver of the Recent Escalation in Highway
  Construction and Maintenance Costs .................................................... 4
  Structural Economic Changes Have Been the Driving
  Force Behind the Escalation in Commodity Input Costs ...................... 11
  The Extent and Timing of Commodity Input Cost Increases
  Varies Across States ............................................................................ 12

EXHIBIT A. SCOPE AND METHODOLOGY ____________________ 16

EXHIBIT B. STATES CONTACTED AND DATA OBTAINED _______ 24

EXHIBIT C. AGENCIES VISITED OR CONTACTED ______________ 26

EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT _________ 28
                                                                                                                       1




FINDINGS

Highway Construction and Maintenance Costs Have Grown
Dramatically in Recent Years
Both national and state data show that the growth in highway construction and
maintenance costs has accelerated notably in recent years. Figure 1 on page iii
shows the cost growth measured by two national indices of highway construction
and maintenance costs. We also examined data from nine states representing
seven regions of the country.4 Figures 3 and 4 show the highway construction cost
indices (CCI) for seven states, each representing one of the seven regions.5


                            Figure 3. State Construction Cost Indices*

                   250


                   200
     Index level




                   150


                   100


                    50


                     0
                         1997   1998    1999   2000      2001     2002      2003      2004      2005      2006


                                 California     Colorado          Nebraska           Washington

*All indices were scaled to equal 100 in 1997.




4
    Those states were New Hampshire, South Carolina, Georgia, Texas, Nebraska, Utah, Colorado, California, and
    Washington. The regional definitions were those delineated by FHWA. South Carolina and Georgia are in the same
    region, as are Utah and Colorado. Our sample did not include regions 3 and 5, the mid-Atlantic and eastern upper
    Midwest regions, respectively, because no states in region 3 and only one in region 5, Wisconsin, had construction
    cost indices with sufficient historical data that we could use in our analyses. The Wisconsin data was received at too
    late a date to be included in our analysis. See Exhibit B for a list of the states contacted in performing our review
    and the data collected.
5
    Figures 3 and 4 cannot be used to compare growth rates across states because the composite indices shown do not
    track the costs of the same highway construction and maintenance activities. Specifically, different states apply
    radically different weights to the various commodity component price series, and often price different products
    within each commodity group in constructing their composite indices.


Findings
                                                                                      2


The four states represented in figure 3 had CCI data available at least as far back
as 1997. For these states, the cost growth since 2003 contrasted strongly with any
other experienced from 1997 through 2003, with the contrast being the most
marked for California and the least striking for Nebraska. In California, the cost
growth of 88.8 percent from 2003 through 2006 was 4.5 times the 19.1 percent
occurring over the previous seven years, a time period more than twice as long. In
Nebraska, the 36.2 percent growth rate from 2003 through 2006 was still 1.6 times
higher than the 23.1 percent occurring from 1997 through 2003.

Although less historical data exists for the three states tracked in Figure 4, the
available data showed the same pattern. Their CCIs increased significantly more
from 2003 through 2006 than from 2000 through 2003. For example, the cost
growth for South Carolina from 2003 through 2006 was 44.0 percent, almost 13
times the 3.5 percent growth for the earlier period.


                       Figure 4. State Construction Cost Indices*

                200



                150
  Index level




                100



                 50



                  0
                      2000   2001         2002   2003        2004       2005   2006
                                New Hampshire    South Carolina     Texas

*All indices were scaled to equal 100 in 2000.

The rapid growth in highway construction and maintenance costs substantially
outpaced the inflation in the rest of the economy over the last three years.
Figure 5 compares the growth in general inflation indices with the growth in
highway cost indices, both nationally and for our sample of states representing
seven of the nine FHWA regions from 2003 through 2006. The measures of
general inflation shown are: the consumer price index for urban consumers
(CPI-U), the most commonly used measure of inflation, and the overall producer
price index (PPI). The national indices of highway construction and maintenance
costs used are the FHWA BPI and the BHWY PPI. As indicated, most of the



Findings
                                                                                                                      3


highway cost measures exhibit growth that was at least twice that of the PPI, and
more than four times that of the CPI-U.


    Figure 5. Percent Changes in Measures of General Inflation
            and Highway Costs Between 2003 and 2006

                     100.0%

                     80.0%
    Percent change




                     60.0%

                     40.0%

                     20.0%

                      0.0%
                                                    I

                                                    I
                                     es




                                                                            a


                                                                                               s
                            om PI-U




                                                                                              n
                                                  BP

                                                  PP




                                                                           re




                                                                                              a

                                                                                              o

                                                                                             ia
                                                                                           xa
                                                                        lin




                                                                                            to
                                                                                           sk

                                                                                           ad

                                                                                          rn
                                 iti




                                                                        hi




                                                                                        ng
                                                                      ro

                                                                                        Te
                                                Y




                                                                                        ra
                               od




                                                A




                                                                                        or
                                                                     ps




                                                                                       ifo
                               C




                                               W
                                              W




                                                                    Ca




                                                                                     hi
                                                                                    eb


                                                                                    ol
                              m




                                                                   am




                                                                                    al
                                            BH
                                            FH




                                                                                  as
                                                                                   C
                                                                                  N




                                                                                  C
                                                                  h
                                                                H




                                                                                 W
                                                               ut
                          lC




                                                            ew

                                                             So
                        Al




                                                           N
                       I–
                     PP




                                    National Measures            National Measures   State Measures of
                                    of General Inflation         of Highw ay Costs   Highw ay Costs



Highway Construction and Maintenance Cost Growth Has
Substantially Reduced the Purchasing Power of Highway Funds
The impact of this cost growth is illustrated in figure 6, which shows the path of
Government expenditures on highway construction in nominal and real terms,6
using the two major indices of national highway costs. Between 1995 and 2002,
both nominal and real expenditures increased. Between 2003 and 2005, nominal
expenditures increased moderately, but real expenditures declined significantly.




6
    Nominal expenditures are equal to the face value of the money spent. Real expenditures are adjusted for inflation so
    that each real dollar of expenditure has the same purchasing power. Consequently, real expenditures in figure 6
    increased only when the increase in expenditures exceeded the rate of inflation, and the total funds spent could buy
    more highway construction.


Findings
                                                                                                               4




          Figure 6. Federal, State, and Local Government Highway
                        Construction Expenditures

                  $70.0

                  $60.0

                  $50.0
     $ billions




                  $40.0

                  $30.0

                  $20.0

                  $10.0

                    $.0
                          1995      1996   1997   1998   1999     2000   2001    2002    2003    2004   2005

                          Nominal      Deflated using the FHWA BPI*      Deflated using the BHWY PPI*


*The base year for this index is 1995.

When enacted in 2005, SAFETEA-LU authorized $42 billion for 2009 Federal-aid
to highways. Should highway project inflation continue at its 2006 pace, as
tracked by the two national indices, this $42 billion will have lost between
37 percent and 60 percent of its value by 2009. In other words, it will be
equivalent to between $26.6 billion and $16.8 billion in 2005 dollars when it
becomes available to be spent.


Growth in the Costs of Commodity Inputs Has Been the Primary
Driver of the Recent Escalation in Highway Construction and
Maintenance Costs
Nationally, commodity prices have risen dramatically for each of the major
commodity groupings used as inputs in highway projects—aggregate, asphalt,
cement and steel. In addition to rising prices for commodity inputs, excavation
and earthwork costs have also risen dramatically. However, they have contributed
less to construction and maintenance cost growth because they comprise a smaller
share of project costs.

Figure 7 shows the growth over time in producer price indices for inputs drawn
from each commodity grouping. The most dramatic growth occurred in the costs
of hot-rolled steel bars and structures. After remaining virtually unchanged from
2000 through 2003, they jumped 71.9 percent from 2003 through 2006. The cost
growth for construction sand/gravel/crushed stone was the lowest of those shown



Findings
                                                                                                                               5


from 2003 through 2006, but at 20.8 percent was 2.4 times its 8.6 percent growth
rate from 2000 through 2003.


                        Figure 7. Commodity Input Cost Inflation Nationally*

                  250

                  200
    Index level




                  150

                  100

                  50

                   0
                        1990       1992        1994        1996         1998      2000         2002        2004         2006

                   Construction sand/gravel/crushed stone (Aggregate)      Hot-Rolled Steel Bars & Structures (Steel)
                   Ready-Mix Concrete (Cement)                             Paving Mixtures and Blocks (Asphalt)

*All indices were scaled to equal 100 in 1987.

Figures 8 through 10 show the growth in costs for inputs in the major commodity
groupings experienced by three states in different parts of the country—New
Hampshire, South Carolina, and California. The component costs depicted all
increased substantially from 2003 through 2006. The costs of the major
commodity inputs included in the CCIs of the other states in our sample exhibited
similarly large growth over the last three years.7




7
      The exceptions were as follows. The costs of Portland cement concrete pavement in Georgia and the costs of
      structural concrete in Nebraska increased only moderately. Utah experienced a decline in the costs of structural steel.


Findings
                                                                                                6




   Figure 8. Commodity Input Cost Inflation in New Hampshire*

                 300

                 250
   Index Level




                 200

                 150

                 100

                 50

                  0
                       2000                   2002              2004                     2006
                              Crushed Material (Aggregate)   Hot Mix Asphalt (Asphalt)
                              Structural Steel (Steel)       Structural Concrete (Cement)
                              Rebar (Steel)

*All indices were scaled to equal 100 in 2000.




In New Hampshire, from 2003 through 2006, hot mix asphalt costs increased
46.8 percent, while costs for structural concrete increased 79.0 percent. By
comparison, from 2000 through 2003 those costs increased by 12.3 percent and
4.8 percent, respectively. In South Carolina, the increases in the commodity input
costs from 2003 through 2006 ranged from 36.3 percent for asphalt to 64.1 percent
for aggregate base. The comparable figures for 2000 through 2003 were
7.3 percent and -4.3 percent, respectively. The range of commodity input cost
increases in California from 2003 through 2006 extended from 34.6 percent for
aggregate base to 118.0 percent for structural steel. While the comparable
increase for aggregate base from 2000 through 2003 was about the same, the
change for structural steel was -37.9 percent.




Findings
                                                                                                                                      7




            Figure 9. Commodity Input Cost Inflation in South Carolina*

                                200


                                150
                  Index Level




                                100


                                  50


                                   0
                                           2000                       2002                 2004                      2006

                                         Graded Aggregate Base (Aggregate)            Hot Mix Asphalt Surface Course (Asphalt)
                                         Structural Concrete (Cement)                 Reinforcing Steel (Steel)


*All indices were scaled to equal 100 in 2000.



                       Figure 10. Commodity Input Cost Inflation in California*

                  300

                  250

                  200
    Index level




                  150

                  100

                     50

                           0
                                  1990        1992         1994         1996   1998       2000        2002        2004         2006
                                Aggregate Base (Aggregate)                        Asphalt Concrete Pavement (Asphalt)
                                Class "A" Port. Cement Concrete (Cement)          Structural Steel "2" (Steel)
                                Bar Reinforcing Steel (Steel)                     Portland Cement Concrete Pavement (Cement)

*All indices were scaled to equal 100 in 1990.

Increases in the costs of excavation and earthwork have also been dramatic since
2003 (see table 1).8 Consequently, they have also contributed to the recent
escalation in highway construction costs. However, they account for a much

8
    Some states include more activities than others when tracking the costs of excavation or earthwork. For example,
    some include embankment work while others do not. In addition, excavation costs vary significantly with the
    particular projects undertaken and environmental considerations. Therefore, these cost growth figures are not
    directly comparable across states.


Findings
                                                                                                                8


smaller share of total cost growth than the various commodity inputs because they
account for a smaller amount of total costs. For example, in South Carolina in
1999 cost increases for excavation accounted for 16 percent of the costs measured
by the South Carolina CCI and installed commodity inputs accounted for the
remaining 84 percent.9 Other highway construction and maintenance costs have
not exhibited growth comparable to that of commodity inputs and excavation and
earthwork. However, the number of bidders on projects has declined, which may
have implications for future highway project cost growth.


                               Table 1. Excavation Cost Growth
                                                                                           Percent Change in
    State                                              Type of Excavation
                                                                                           Cost (2003 - 2006)
    New Hampshire                                     Roadway Excavation                          56.5
    South Carolina                                    Combined Excavation                         26.1
    Texas                                             Earthwork                                   47.2
    Nebraska                                          Roadway Excavation                          56.3
    Colorado                                          Earthwork                                   70.6
    California                                        Roadway Excavation                         153.5
    Washington                                        Roadway                                     13.1

Other Highway Construction and Maintenance Costs Have Not Shown
Comparable Growth
Although commodity inputs have shown considerable growth over the last three
years, other elements of highway project costs did not. We investigated the
growth in wages, insurance and engineering costs, and highway construction
companies’ profit margins. We found that wages for workers engaged in heavy
and highway construction have increased only gradually from 2003 through
2005,10 well below the increase in the highway cost indices both at the national
level and for the states in our sample (see table 2).




9
     Installed commodity input costs include labor, overhead, and transportation costs and a profit margin.
10
     At the time of our audit, wage data were not available for all of 2006.


Findings
                                                                                                                   9




      Table 2. Wages for Heavy and Highway Construction Versus
                         Highway Cost Indices
                Percent Changes for 2003 through 2005
                                                                                            Highway Cost
                                                                     Wages                     Indices
     National:                                                        6.5
       FHWA-BPI                                                                                     22.6
       BHWY PPI                                                                                     26.4
     State:
       California                                                       7.7                         80.6
       Colorado                                                         3.0                         65.3
       Nebraska                                                         7.2                         39.0
       New Hampshire                                                    2.6                         40.6
       South Carolina                                                   8.1                         48.2
       Texas                                                            7.8                         47.2
       Washington                                                       9.1                         21.4

Insurance and engineering costs also showed limited increases. As illustrated in
figure 11, the growth in commodity input costs was far greater than that of these
other costs.11




11
     The cost increases in figure 11 were calculated using the relevant producer price indices. The BHWY PPI was used
     to derive the growth in commodities.


Findings
                                                                                                                   10




           Figure 11. Comparison of Growth in Commodities and
                           Other Major Costs

                                   14.0%

                                   12.0%
               Percentage change


                                   10.0%
                                   8.0%
                                   6.0%

                                   4.0%
                                   2.0%
                                   0.0%
                                             2003      2004              2005               2006

                                    Commodities     Engineering Services     Liability Insurance
                                    Worker's Comp   Group Health



We found no evidence that highway construction firm profit margins were an
underlying reason for the recent surge in overall highway project costs. Based on
consultation with industry experts and our review of the available data, we
determined that profits in the heavy and highway construction industry have not
been unusually high in recent years. However, both provided information on a
limited sample of the industry.12


The Number of Bidders on Highway Projects Has Declined in Recent
Years
A 2006 AASHTO survey found that 34 of 45 state respondents had experienced a
decrease in the number of bids received on highway projects since 2003. In the
State of Washington, for example, the average number of bidders per contract
declined from 4.0 in 2003 to 3.0 in 2006. Historically, fewer bidders for highway
projects has been associated with an increase in costs, due to decreased
competition. The absence of clear evidence of an increase in the profitability of
firms engaged in highway construction since 2003 indicates that the decline in
bidders has not yet contributed to the growth in highway costs. However, the
decrease in the number of bidders is a development that bears further monitoring.
12
     The primary available data on heavy and highway construction industry profits for the period since 2003 was
     collected by the Construction Financial Management Association through a voluntary survey of its members. The
     construction industry analysts we interviewed could only comment on the profitability of publicly traded heavy and
     highway construction firms.


Findings
                                                                                                                          11


Structural Economic Changes Have Been the Driving Force Behind
the Escalation in Commodity Input Costs
Industry analysts for each of the major commodity groupings indicated that
structural economic changes have largely been responsible for the recent
escalation in commodity input costs. Consequently, the costs of commodity inputs
to highway projects can be expected to remain elevated, and possibly continue
their rise in the near term. The effect of this is to reduce the purchasing power of
each dollar of Federal highway construction and maintenance funding below its
value in 2003. Therefore, if Congress and the Administration want to provide for
the same amount of highway construction as was undertaken prior to 2003,
significantly more funding may be required in the next highway bill. The
following paragraphs summarize industry analysts’ views of the structural changes
affecting the markets for each of the major commodity groups used in highway
projects.


Steel
Steel scrap, the primary input to the production of steel used in highway projects,
is becoming harder to acquire.13 Less steel scrap is produced per capita in the
United States than in the past because less manufacturing occurs in this country,
and recycled manufactured products, such as motor vehicles, contain less steel. At
the same time, international demand for steel scrap is growing. As a result, prices
for common scrap have more than doubled in recent years.

Further, since 2000 significant consolidation has occurred in the steel industry.
Before this consolidation, the top 10 steel manufacturers held 30 percent of the
world steel market, whereas they now hold 50 percent. One company created
through a 2003 merger, Arcelor-Mittal, supplies 10 percent of the world steel
market. Consolidation has increased the market power of the remaining firms, and
their ability to maintain prices.


Asphalt
Higher gasoline prices and growing international demand for middle distillates,
such as diesel fuels, has resulted in a decrease in the production and an increase in
the price of asphalt. Until recently, asphalt had been produced largely as a by-
product of other refinery processes, rather than as a source of profits in its own
right. Now, refineries are upgrading their processes to produce larger amounts of
higher grade, profitable output from each unit of crude oil input, resulting in a

13
     Most of the steel used in highway projects is produced in mini-mills. Mini-mills rely on electric arc furnaces to melt
     scrap steel, which is the largest component of their costs. This is in contrast to integrated steel mills, which use blast
     furnaces to process iron ore and coke.


Findings
                                                                                                                      12


decrease in the production of by-products, including asphalt. This is causing the
price of asphalt to increase to justify its production by refineries instead of other
profitable output.

Additionally, asphalt customers increasingly demand specialized products, such as
asphalt meeting Superpave requirements.14 The demand for specialized products
makes it more difficult for asphalt customers to obtain supplies meeting their
needs. Combined with the changes in refinery processes, it is becoming less likely
that available by-products can adequately provide the asphalt required to meet
customer demand.


Cement
The price of cement tracks the growth in oil prices, as the production of cement is
a highly fuel-intensive process. Not only must the kilns used to produce the
intermediate outputs be heated to extreme temperatures, but considerable power is
required to grind those intermediate outputs into powder. The near-term forecast
of the Energy Information Administration and major energy forecasters we
interviewed is for the price of oil to remain elevated, keeping the price of cement
high.


Aggregate
Aggregate deposits are becoming increasingly unavailable as a result of spreading
urban and suburban development. New residents often object to aggregate
operations because of truck traffic, noise, or dust. Encroachment has already
prevented the development of substantial aggregate deposits.

Further, aggregate quarries are increasingly deciding not to supply Superpave
projects, because they are finding that supplying those projects causes their output
of other products to decline. Consequently, the number of quarries available to
supply certain projects is decreasing.


The Extent and Timing of Commodity Input Cost Increases Varies
Across States
States from across the country have seen the costs of commodities used in
highway projects rise dramatically in recent years. However, we found that the
timing and extent of the increase in the cost for any given commodity input
differed significantly across states.

14
     Superpave, a principal product of the Strategic Highway Research Program, is a system of standard specifications,
     test methods, and engineering practices that enable the appropriate materials selection and mixture design of hot mix
     asphalt to meet the climatic and traffic conditions of specific roadway paving projects.


Findings
                                                                                                             13


To investigate this issue, we identified instances where the states in our sample
tracked the costs of the same commodity inputs over time.15 We made cross-state
comparisons of the cost growth of inputs in each of the major commodity
groupings across subsets of our sample of states. Specifically, we performed
comparisons of costs across certain states for bituminous concrete pavement,
reinforcing steel, structural steel, portland cement concrete (PCC) pavement, and
structural concrete. The extent and timing of the cost increases for each of the
inputs examined varied by state (see figures 12 through 14).

The cost increases for the states in our comparison did not occur in step with each
other nor were they of the same magnitude for any of the commodities. For
example, from 2003 through 2006, Georgia experienced growth of 93.7 percent in
the cost of bituminous concrete, while the comparable figure for Washington State
was 64.2 percent. Also, between 2004 and 2005, the cost of bituminous concrete
increased by 41 percent in California, but remained relatively flat in Georgia and
Washington state.


                          Figure 12. Bituminous Concrete Pavement Costs*

                    300


                    250
      Index Value




                    200


                    150


                    100


                     50


                      0
                           1997   1998    1999     2000      2001   2002     2003    2004   2005     2006

                                         Georgia          Utah      California      Washington

*All indices have been scaled to equal 100 in 1997.




15
     This required the collection of detailed technical data on the commodity inputs included in various CCIs and
     consultation with our engineering group.


Findings
                                                                                               14




                                Figure 13. Reinforcing Steel Costs*

                  250


                  200
    Index Value




                  150


                  100


                  50


                   0
                        1997    1998   1999   2000   2001   2002   2003   2004   2005   2006

                   Georgia      Nebraska      Colorado      Utah    California   Washington

*All indices have been scaled to equal 100 in 1997.



                               Figure 14. Structural Concrete Costs*

                  250


                  200
    Index Value




                  150


                  100


                  50


                   0
                        1997    1998   1999   2000   2001   2002   2003   2004   2005   2006

                   Georgia      Nebraska      Colorado      Utah    California   Washington

*All indices have been scaled to equal 100 in 1997.




Findings
                                                                                 15


While some timing differences may result from differences in ongoing contracts,
the industry experts we interviewed stated that these variations in costs resulted
primarily from differences in transportation costs. The commodity inputs to
highway projects require special handling in transportation, or are simply very
heavy or cumbersome. For example, asphalt products must be heated in order to
become soft enough to pour into and out of the containers in which they are
transported. Consequently, transportation costs tend to comprise a substantial
share of total commodity input costs.


CONCLUSION
Highway construction and maintenance costs nationwide grew dramatically from
2003 through 2006, substantially reducing the purchasing power of highway
funds. Increases in the costs of the commodities used in highway projects, such as
cement and steel, have largely driven this growth. Since these increases are the
result of structural economic changes, the costs of these commodities can be
expected to remain elevated, and possibly continue to increase in the near term.
Finally, the extent of highway project cost growth has varied across states
primarily due to differences in transportation costs

The challenge of rebuilding our nation’s highway and bridge infrastructure is
likely to be compounded by rising construction costs driven by increasing prices
for construction materials. Given these cost increases, the next highway bill may
need to provide a significant increase in funding to maintain, let alone exceed, the
volumes of highway construction and maintenance undertaken prior to 2003.




Findings
                                                                                  16




EXHIBIT A. SCOPE AND METHODOLOGY

Scope
In September 2006, the House Committee on Transportation and Infrastructure
requested that our office analyze the growth in highway construction and
maintenance costs. Our objectives were to determine: (1) the extent of recent cost
increases for highway construction and maintenance projects, (2) whether the cost
increases are the product of transitory factors or indicative of longer term
structural changes that need to be incorporated into future transportation funding
plans, and (3) the degree to which the cost increases are subject to regional
variations.

In conducting this performance audit, we examined both national and state data on
highway construction and maintenance costs. In addition, we analyzed a range of
supporting information, such as data on the number of bidders per project, industry
profit margins, and wages. Further, we interviewed experts on each of the major
categories of commodity inputs used in highway construction and maintenance, as
well as on the highway construction industry. We performed this audit in
accordance with Generally Accepted Government Auditing Standards prescribed
by the Comptroller General of the United States with the exception of the data
quality standards. We did not systematically audit or validate the data used for
this report. However we conducted checks of the data to assess reasonableness
and comprehensiveness and concluded that the data, despite shortcomings, was
sufficient to support our findings.

The methodology section below describes the steps we took to answer the
objectives of this audit. In the data reliability section, we describe the quality of
the data collected for this report and its limitations.


Methodology

Gauging Highway Construction and Maintenance Cost Increases
We examined both national and state measures of highway costs to determine the
extent of recent increases. For national highway construction and maintenance
costs, we examined all available indices—the FHWA BPI, the BHWY PPI, and
the Engineering News Record's Construction Cost Index (ENR CCI). We later




Exhibit A. Scope and Methodology
                                                                                                                    17


excluded the ENR CCI from our analysis because we determined it was a poor
measure of highway construction costs.16

We conducted a survey, with the help of AASHTO, to determine which states
maintained construction cost indices.17 From the states that replied to the survey,
we selected a judgmental sample, including one state from each FHWA region.18
Exhibit B lists the survey respondents and states in our sample.


Effects of Cost Increases on Highway Construction Expenditures
We used data from the United States Census Bureau and FHWA to estimate total
Federal, state, and local expenditures between 1995 and 2005. We measured the
effects of the increase of highway construction costs on expenditures by
comparing nominal expenditures to real expenditures calculated using both the
FHWA BPI and the BHWY PPI to measure inflation.


Drivers of Highway Construction Costs
We identified the drivers of highway construction costs by first examining the
components included in the indices mentioned above. The national FHWA BPI
and the state indices are based on bid data and track the installed price of the
commodity inputs. This not only includes the costs of raw materials, but also the
costs of labor, transportation, overhead, and a margin for profit. We identified
additional elements of highway construction costs by consulting experts from the
Federal Highway Administration, the American Road and Transportation Builders
Association (ARTBA), the Associated General Contractors of America, and state
departments of transportation. We investigated the growth in raw material prices,
wages, insurance and engineering costs, and highway construction companies’
profit margins. We compared the non-commodity inputs’ price fluctuations to the
BHWY PPI, which tracks the price level of highway construction commodity
inputs from the producer’s perspective and does not include any costs related to
the installation of raw materials. The specific measures used for each component
of highway construction we investigated can be found below.


16
   The ENR CCI was created to monitor the costs of general construction in the economy by tracking the price of a
   fixed set of inputs chosen in 1921. The CCI weights labor at 81 percent and includes lumber, which is not a major
   input to highway construction.
17
   FHWA also maintains individual state bid price indices (BPIs) to monitor regional price variations in highway
   construction costs. However, given the data quality weaknesses discussed in the data reliability section below, we
   were not confident of the BPIs accuracy at the state-level and instead relied on construction cost indices maintained
   by states.
18
   In regions 3 and 5, none of the respondents to our survey that were provided in time to be included in our analysis
   maintained a construction cost index. Therefore, region 3, the mid-Atlantic region, and region 5, the eastern upper
   Midwest region, were not represented in our sample. We selected two states in two other regions to compare
   intraregional commodity input price movements.


Exhibit A. Scope and Methodology
                                                                                                                    18


We collected national and state wage data for highway and street construction
workers from the Bureau of Labor Statistics. To measure profits of the highway
construction industry we collected gross and net profit margins, return-on-equity,
and return-on-assets data from the Certified Financial Managers Association and
the Internal Revenue Service. We supplemented the profit data with interviews
with financial analysts that cover publicly traded heavy and highway construction
and engineering firms. In addition to comparing the national wage data and profit
data to the BHWY PPI, we compared state wage data to the composite state
construction cost indices.

We also gathered data on the other components tracked implicitly by the FHWA
BPI and state CCIs. These components were equipment and elements of
overhead; that is, group health insurance, worker’s compensation insurance, and
liability insurance. We used producer price indices for each of these items as
proxies to measure price fluctuations.19

Following our analysis of inputs tracked by the indices in our review, we needed
to determine whether other costs of highway construction not tracked by the
indices may have contributed to the recent cost increases. We attempted to
conduct a trend analysis of the percentage of highway construction costs not
accounted for by state CCIs. However, we did not have data from a sufficient
sample of states to draw a conclusion and the data we did have did not show any
discernable pattern. Based on the information obtained from our interviews of
experts discussed above, we identified two main cost items for highway
construction not tracked by the indices, engineering and right-of-way acquisition
costs. We used the PPI for non-building related engineering services to measure
engineering price fluctuations. We compared the price levels of the engineering
PPI to commodity price levels using the BHWY PPI. Data on right-of-way costs
were not readily available. Consequently, we were not able to estimate the extent
to which right-of-way costs contributed to the increase in highway construction
costs.


Structural Versus Transitory Change
Once we identified commodity cost growth as the main driver of highway project
costs over the past few years, we set out to determine whether the price increases
for highway commodity inputs were a result of transitory factors or indicative of
structural change. Since the rapid acceleration of prices for highway commodity
inputs had only begun in 2003, there was insufficient data to support a statistical
analysis. Instead, we selected and interviewed a group of experts for each major

19
     The producer price indices used as proxies for the other non-commodity components of highway construction were
     not specific to the highway construction industry. Where possible, we used PPIs for industry that may be similar to
     highway construction such as general construction.


Exhibit A. Scope and Methodology
                                                                                19


grouping of commodity inputs to highway construction. These groupings were:
cement, steel, aggregate, and asphalt. We also interviewed petroleum industry
experts, as the price of petroleum heavily affects the costs of the commodity
inputs. We selected at least three groups of experts for each commodity grouping
based on recommendations from government sources or industry associations and
our own research. For instance, for petroleum we interviewed analysts at the
Energy Information Administration of the U.S. Department of Energy, who then
recommended a diverse group of experts from reputable research firms and a
forecasting firm. Exhibit C provides a complete list of interviewees.


Highway Construction Cost Variation Across States
We found that the make-up of composite state CCIs varied too substantially to
allow for meaningful cross-state comparisons. We also found, however, that some
individual commodity components of state indices (for example, asphalt, structural
steel, etc.) were comparable across some states. We determined this by collecting
detailed technical information from states on the specific items tracked for each
component and having our in-house engineer examine their comparability. This
was necessary because the specific items tracked under any given commodity
label, such as structural steel, varied. We compared the cost growth for
components that were determined to be comparable to examine the extent of price
variation across states for highway input commodities.


Data Reliability
This section discusses the data series we used for this report, as well as the
limitations of some major data series we decided not to use. We did not
systematically audit or validate the data used for this report. However, we
conducted checks of the data to assess reasonableness and comprehensiveness.
Moreover, we did not rely on any one series to draw our conclusions; instead, we
looked for patterns across the various data series and supplemented those with
information gathered through interviews with various industry experts. We
concluded that any shortcomings with the data did not materially affect the type of
analyses we conducted or our ability to draw conclusions based on the data.


Federal Highway Administration
Bid Price Index
Data for the FHWA indices on highway construction costs came from state reports
of statistics on all Federal-aid primary, urban, and interstate highway projects.
Respondents were required to report the quantities and the costs for six highway
construction items—common roadway excavation, Portland cement concrete


Exhibit A. Scope and Methodology
                                                                                                      20


pavement, bituminous concrete pavement, reinforcing steel, structural steel, and
structural concrete. Based on this data, FHWA calculated national and state level
Bid Price Indices (BPI) and indices for each of the highway construction items. It
published these indices in the quarterly publication Price Trends for Federal-Aid
Highway Construction.

The quality of the data underlying these indices was criticized in a 2003
Government Accountability Office (GAO) report.20 GAO found that FHWA had
no systematic error-checking of reported data, data were substantially
underreported by some states, and FHWA reported some data in a year subsequent
to that which it applied. GAO also noted that FHWA had not disclosed the
limitations of the data of which it was aware. FHWA had not made any changes
to the FHWA BPI or its data collection methodology to address the
recommendations outlined in the 2003 GAO report before discontinuing it on
May 22, 2007.

Bidders Data
Data on the number of bidders on Federal-aid highway construction contracts of
more than one million dollars used to be required to be reported to FHWA within
two weeks of the awarding of each highway contract. That requirement was
recently discontinued by FHWA. Our analysis of this bidders data indicated that
there may be a degree of underreporting. Consequently, we did not rely on FHWA
bid tab data in our analyses.

Expenditure Data
Federal Expenditures
The figures we used for Federal expenditures on highway construction were
obtained from FHWA’s Highway Statistics series. FHWA collects data on direct
expenditures by Federal agencies for highway construction. The bulk of these
Federal direct expenditures are expended by FHWA.

State and Local Expenditures
FHWA collects data from states and local governments on highway construction
expenditures; however, we did not use this data because we do not consider it to
be as reliable as similar information provided by the Census Bureau. FHWA relies
on state transportation departments to abide by FHWA guidelines for reporting
highway-related expenditures and does not formally test whether states are
complying with those guidelines. In some instances, state transportation
departments are required to sample local governments to estimate highway
expenditures. The sampling methodology varies from state to state and FHWA

20
     Comparison of States’ Highway Construction Costs, U.S. Government Accountability Office, GAO-04-113R,
     Washington, DC, November 3, 2003.


Exhibit A. Scope and Methodology
                                                                                                                   21


does not review these sampling procedures. FHWA depends on its staff to
recognize errors and anomalies and to follow-up with state transportation
departments to investigate the errors.


Bureau of Labor Statistics
Producer Price Indices (PPIs)
The Bureau of Labor Statistics (BLS) constructs producer price indices to track the
change over time in the prices quoted by producers of goods and services in the
United States. The data for these indices are collected through voluntary surveys
submitted by thousands of reporters in establishments across the United States.
The data is obtained by sampling virtually every industry in the mining and
manufacturing sectors of the U.S. economy. The indices published by the BLS are
a popular and widely trusted source of price data.

The PPIs used in our analysis were the PPI for the highway and street construction
sector and individual PPIs for commodities used in highway and street
construction, and for engineering and various types of insurance. We selected the
individual producer price indices based on research by ARTBA and the American
General Contractors Association and interviews with other experts.

Wage Data
We used data from the BLS Quarterly Census of Employment and Wages
(QCEW) to determine wages for highway and street construction workers at both
national and state levels. The QCEW is a cooperative program between BLS and
state employment agencies to assemble employment and wage information for all
workers covered by state and Federal unemployment laws.21 Because of the
ubiquitous nature of the unemployment insurance laws, the QCEW program
serves as a near census of monthly employment and quarterly wages and is
considered to be a reliable source for wage data.


State Data
State Construction Cost Indices (CCIs)
Generally, the states in our sample did not have a formal process to review the
data on which their CCIs were based. Personnel responsible for maintaining state
CCIs collect data directly from the database that houses bid data. These databases

21
     In 1994, the most recent year data were available, over 96 percent of the total wage and salary civilian workforce
     was covered under either state or Federal unemployment insurance. Workers not covered by unemployment
     compensation laws consist mostly of agricultural workers, self-employed farmers, some domestic workers, and
     unpaid family workers.


Exhibit A. Scope and Methodology
                                                                                 22


generally have mechanisms to filter out erroneous data, such as negative dollar
figures or quantities, that exceed a predetermined range. In all states, personnel
review the index data with each update and flag any anomalous data. In addition,
some states publish construction cost index data publicly, which may increase the
level of scrutiny of data quality.

State Bidders Data
Not all of the states in our sample had sufficient historical data on the number of
bidders on highway projects readily available. Instead, we were able to collect
bidders data from Iowa, Nebraska, New Hampshire, North Carolina, South
Dakota, Texas, Utah, Virginia, Washington, and Wisconsin.


The Census Bureau
Expenditure Data
We used data from the United States Census Bureau for estimates of highway
construction expenditures by state and local governments. The Census Bureau
obtains the data through annual surveys of state and local government entities,
where local government entities include counties, municipalities, townships,
special districts, and school districts. The data for states represent actual annual
expenditures of all 50 state governments. For non-school local governments, a
sample survey of 13,000 non-school governments is conducted annually except for
census years when data from all 87,000 local governments are obtained. The
Census Bureau collects annual financial reports electronically from states. Further,
Census Bureau staff code the expenditure items according to Census Bureau rules
and guidance.


Other Data Sources
Highway Construction Industry Profit
We collected data from three sources on the profitability of the highway
construction industry.    The first source was the Construction Financial
Management Association (CFMA), which is a nonprofit organization geared
towards accountants and other financial professionals working in the construction
industry. The CFMA conducts an annual "Construction Industry Financial
Survey" that provides comprehensive financial data for construction companies,
including highway construction firms. In these survey reports, CFMA provides




Exhibit A. Scope and Methodology
                                                                                                                  23


breakdowns of financial data by construction sector and region. We collected its
national and regional data for the heavy and highway construction sector.22

CFMA’s 2006 Annual Financial Survey states that the survey is not intended to be
statistically representative and only about 60 to 70 percent of survey respondents
overlap from year to year. Despite these limitations, CFMA survey data are the
only source of data that we are aware of that provide detailed financial information
for the highway construction sector for recent years.

The second set of data we collected on the profitability of the highway
construction industry was compiled from tax filings by the heavy construction
industry, which we obtained from the Internal Revenue Service’s website. At the
time of our analysis, the most recent data available covered 2003. This limited the
data’s usefulness for the purposes of our analysis.

The third source of profitability data that we collected was ARTBA, which
assembles a measure of industry profitability based on a voluntary survey of its
members. However, the survey only asks respondents if their profits have
increased, stayed the same, or decreased relative to the previous quarter. The
measure ARTBA publishes indicates whether more respondents experienced an
increase than a decrease in their profits, or vice versa, when compared with the
previous quarter. We found it difficult to draw any implications from this series.




22
     The heavy and highway construction sector includes companies not directly involved in the construction of
     highways. Since only the overall number of survey respondents for the heavy and highway construction is reported,
     the number of highway construction companies that complete CFMA's survey is unknown. As a result, the financial
     data may be skewed by data from other heavy construction firms.


Exhibit A. Scope and Methodology
                                                                                    24




EXHIBIT B. STATES CONTACTED AND DATA OBTAINED
                                               Has an       Has
 FHWA                             Contacted    Overall   Component    Length of
 Region            State           by OIG       CCI      Price Data   Data Series
          Connecticut            No
          Maine                  No
          Massachusetts          Yes          No
          New Hampshire*         Yes          Yes        Yes          2000 – 2007
   1      New Jersey             No
          New York               Yes          No
          Rhode Island           No
          Vermont                Yes          No
          Puerto Rico            No
          Delaware               No
          District of Columbia   No
          Maryland               Yes          No
   3
          Pennsylvania           Yes          No
          Virginia               Yes          No
          West Virginia          No
          Alabama                No
          Florida                Yes          No
          Georgia*               Yes          No         Yes          1996 – 2006
          Kentucky               No
   4
          Mississippi            Yes          Yes        Yes          1988 – 2006
          North Carolina         Yes          Yes        Yes          1995 – 2006
          South Carolina*        Yes          Yes        Yes          1999 – 2006
          Tennessee              No
          Illinois               Yes          Yes        Yes          N/A
          Indiana                No
          Michigan               No
   5
          Minnesota              No
          Ohio                   Yes          Yes        Yes          2005 – 2006
          Wisconsin              Yes          Yes        Yes          1982 – 2006
          Arkansas               No
          Louisiana              No
   6      New Mexico             No
          Oklahoma               No
          Texas*                 Yes          Yes        Yes          1999 – 2006
          Iowa                   Yes          Yes        Yes          1986 – 2006
          Kansas                 No
   7
          Missouri               No
          Nebraska*              Yes          Yes        Yes          1998 – 2006
          Colorado*              Yes          Yes        Yes          1987 – 2006
          Montana                No
          North Dakota           No
   8
          South Dakota           Yes          Yes        Yes          1987 – 2006
          Utah*                  Yes          Yes        Yes          1990 – 2006
          Wyoming                No




Exhibit B. States Contacted and Data Obtained
                                                                              25


 FHWA                       Contacted    Overall   Component    Length of
 Region            State     by OIG       CCI      Price Data   Data Series
             Arizona       No
             California*   Yes          Yes        Yes          1987 – 2006
    9
             Hawaii        No
             Nevada        No
             Alaska        No
             Idaho         No
    10
             Oregon        Yes          Yes        Yes          1987 - 2006
             Washington*   Yes          Yes        Yes          1990 - 2006
*States in our sample.




Exhibit B. States Contacted and Data Obtained
                                                                 26




EXHIBIT C. AGENCIES VISITED OR CONTACTED

Federal Government
Department of Transportation
  Federal Highway Administration
      Office of Asset Management                Washington, DC
      Office of Chief Financial Officer         Washington, DC
      Office of Policy Information              Washington, DC
      Office of Transportation Policy Studies   Washington, DC
      Office of Program Administration          Washington, DC
Department of Labor
   Bureau of Labor Statistics                   Washington, DC
Department of Commerce
  Census Bureau
      Governments Division                      Suitland, MD
      Manufacturing Construction Division       Suitland, MD
Department of Energy
  Energy Information Administration             Washington, DC
Department of the Interior
   Geological Survey                            Reston, VA

State Departments of Transportation
California                                      South Carolina
Colorado                                        South Dakota
Florida                                         Ohio
Georgia                                         Oregon
Illinois                                        Pennsylvania
Iowa                                            Texas
Maryland                                        Utah
Massachusetts                                   Vermont
Mississippi                                     Virginia
New York                                        Washington
Nebraska                                        Wisconsin
North Carolina



Exhibit C. Agencies Visited or Contacted
                                                                            27



Industry Associations
American Road and Transportation Builders Association, Washington, DC
Association of State and Highway Transportation Officials, Washington, DC
Associated General Contractors of America, Rosslyn, VA
Construction Financial Management Association, Princeton, NJ
National Stone, Sand and Gravel Association, Alexandria, VA
Portland Cement Association, Skokie, IL
Steel Manufacturers Association, Washington, DC
The Asphalt Institute, Lexington, KY

Research Firms and Other Organizations (Grouped by Subject)
Aggregate
Vulcan Materials Company, Birmingham, AL

Asphalt
Argus Media Group, Houston, TX
Poten & Partners, New York, NY

Construction Industry
Credit Suisse, New York, NY
Goldman Sachs, New York, NY
Morgan Joseph, New York, NY

Energy
Deutsche Bank, Washington, DC
Global Insight, Washington, DC

Steel
Bradford Research, New York, NY
Metal Strategies, West Chester, PA




Exhibit C. Agencies Visited or Contacted
                                                                         28




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                 Title

  David Tornquist                      Assistant Inspector General for
                                       Competition and Economic
                                       Analysis

  Mitchell Behm                        Program Director

  Betty Krier                          Supervisory Economist/Project
                                       Manager

  Jovanny Roque                        Economist

  Keith Klindworth                     Economist

  Aron Wedekind                        Engineer

  Harriet Lambert                      Writer-Editor




Exhibit D. Major Contributors to This Report
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
          Growth in Highway Construction and Maintenance Costs
                       508 Compliant Presentation


Figure 1. National Highway Construction
and Maintenance Cost Indices
             FHWA BPI            BHWY PPI
   1990            108.5                    110.7
   1991            107.5                    110.6
   1992            105.1                    110.0
   1993            108.3                    111.7
   1994            115.1                    114.3
   1995            121.9                    118.4
   1996            120.2                    122.1
   1997            130.6                    124.6
   1998            126.9                    123.5
   1999            136.5                    126.6
   2000            145.6                    136.5
   2001            144.8                    137.0
   2002            147.9                    133.7
   2003            149.8                    136.6
   2004            154.4                    148.2
   2005            183.6                    166.8
   2006            221.3                    184.8

Figure 2. Growth in Commodity Input Costs for
Highway Construction in Washington State
            Crushed   Structural Hot Mix   Steel
           Surfacing  Concrete Asphalt Reinforcing
          (Aggregate) (Cement) (Asphalt) Bar (Steel)
  1990          100.0     100.0    100.0       100.0
  1991          112.1     139.4      87.2      100.0
  1992          113.3     100.2      80.7       97.8
  1993           89.2     114.7      83.0       93.3
  1994           90.6     107.5      84.8       91.1
  1995          108.2     123.1      86.2       97.8
  1996          112.4     131.8      85.5      108.9
  1997          120.0     135.3      95.5      113.3
  1998          126.8     119.8      94.8      108.9
  1999          130.7     139.9      87.0      100.0
  2000          134.8     120.9      96.6      113.3
  2001          129.1     155.2      97.5       91.1
  2002          121.8     141.0    102.1       120.0
  2003          119.6     164.5    106.0       111.1
  2004          150.6     141.7    123.7       191.1
  2005          149.4     181.1    129.9       202.2
  2006          145.6     205.6    174.0       217.8
           Growth in Highway Construction and Maintenance Costs
                        508 Compliant Presentation

Figure 3. State Construction Cost Indices
        California Colorado Nebraska Washington
 1997        100.0    100.0    100.0      100.0
 1998        103.0    113.3    121.3       83.5
 1999        111.5    114.0    128.2       86.3
 2000        117.2    122.3    120.9       92.1
 2001        123.5    112.3    119.9       92.8
 2002        113.9    107.5    127.3      100.0
 2003        119.1    110.6    123.1      104.3
 2004        173.2    120.3    139.3      123.0
 2005        214.9    182.8    152.3      126.6
 2006        224.8    183.0    167.7      164.0


Figure 4. State Construction Cost Indices
        New Hampshire      South Carolina         Texas
 2000           100.0               100.0            100.0
 2001           143.4                94.6            109.4
 2002           128.3                95.6            104.3
 2003           117.0               103.5            113.9
 2004           154.2               116.2            122.4
 2005           164.5               133.7            140.4
 2006           176.4               149.0            180.9


Figure 5. Percent Changes in Measures
of General Inflation and Highway Costs
Between 2003 and 2006
                               2003 - 2006
National Measures of General Inflation
CPI-U                                      9.6%
PPI – All Commodities                    19.3%
National Measures of Highway Construction Costs
FHWA BPI                                 47.7%
BHWY PPI                                 35.3%
State Measures of Highway Construction Costs
New Hampshire                            50.8%
South Carolina                           44.0%
Texas                                    72.4%
Nebraska                                 36.2%
Colorado                                 65.5%
California                               88.8%
Washington                               57.2%
           Growth in Highway Construction and Maintenance Costs
                        508 Compliant Presentation

Figure 6. Federal, State, and Local Government
Highway Construction Expenditures ($ millions)
                              Deflated using    Deflated using
              Nominal         the FHWA BPI      the BHWY PPI
    1995     $   37,465          $    37,465       $    37,465
    1996     $   38,427          $    38,970       $    37,262
    1997     $   40,351          $    37,663       $    38,343
    1998     $   42,789          $    41,103       $    41,022
    1999     $   46,231          $    41,286       $    43,236
    2000     $   50,619          $    42,379       $    43,907
    2001     $   54,177          $    45,609       $    46,822
    2002     $   59,579          $    49,105       $    52,761
    2003     $   58,603          $    47,689       $    50,795
    2004     $   59,548          $    47,014       $    47,574
    2005     $   61,969          $    41,144       $    43,987


Figure 7. Commodity Input Cost Inflation Nationally
              Construction                      Hot rolled
              sand, gravel,       Ready-       bars, plates,   Paving
               & crushed          mixed        & structural   mixtures
                 stone           concrete         shape      and blocks
  1990               125.4           111.9             105.1       101.2
  1991               128.6           114.7             101.5       103.2
  1992               130.6           115.3              98.6       100.2
  1993               134.0           118.8             101.9       102.0
  1994               137.9           123.8             108.1       103.2
  1995               142.3           129.0             114.4       105.8
  1996               145.6           133.1             112.5       107.6
  1997               148.2           135.6             112.1       113.2
  1998               152.8           139.7             111.8       112.5
  1999               157.2           143.2              99.1       112.9
  2000               163.1           147.1             100.5       130.4
  2001               168.8           150.3              95.1       134.6
  2002               173.0           150.2              95.1       136.2
  2003               177.1           150.8              99.3       142.6
  2004               183.3           158.7             143.8       144.9
  2005               195.8           177.7             159.8       156.9
  2006               213.9           198.6             170.7       200.5
          Growth in Highway Construction and Maintenance Costs
                       508 Compliant Presentation

Figure 8. Commodity Input Cost Inflation in New Hampshire
             Crushed   Structural                 Hot Mix  Structural
             Material    Steel         Rebar      Asphalt  Concrete
           (Aggregate)  (Steel)        (Steel)   (Asphalt) (Cement)
  2000           100.0     100.0         100.0       100.0     100.0
  2001           140.7     247.9         173.3       100.5     150.1
  2002           146.6       79.5        101.4       103.2     147.2
  2003           133.6       80.8        104.6       112.3     104.8
  2004           157.9     183.3         177.2       118.7     161.1
  2005           184.1     131.4         151.6       128.0     131.4
  2006           203.8       94.7        160.8       164.8     187.6


Figure 9. Commodity Input Cost Inflation in South Carolina
            Graded
           Aggregate      Structural   Hot Mix Asphalt
             Base         Concrete     Surface Course     Reinforcing
          (Aggregate)     (Cement)        (Asphalt)       Steel (Steel)
  2000           100.0         100.0             100.0            100.0
  2001            99.7         134.2               95.6           133.1
  2002            96.0         139.1               98.1           115.0
  2003            95.7         122.3             107.3            124.8
  2004            87.6         139.1             126.4            153.2
  2005           128.3         161.4             133.6            177.0
  2006           157.1         174.4             146.3            177.8


Figure 10 - Commodity Input Cost Inflation in California
                         Class "A"                                   Portland
                         Portland       Bar       Asphalt            Cement
          Aggregate       Cement    Reinforcing Concrete Structural Concrete
            Base         Concrete      Steel     Pavement Steel "2" Pavement
         (Aggregate)     (Cement)     (Steel)    (Asphalt) (Steel)  (Cement)
  1990         100.0          100.0       100.0      100.0    100.0      100.0
  1991          83.6          100.0         91.9     108.6    103.4       90.9
  1992          81.0           89.9         89.3     105.5    139.1       96.9
  1993          82.1           82.6         98.9     115.1    122.5       96.9
  1994          86.2           94.1       116.6      120.7    105.7       96.4
  1995          84.5          101.2       106.4      114.7    102.6       92.6
  1996          80.8          109.0       109.2      122.4     98.3       95.6
  1997          85.4          104.5       105.8      117.2    105.8      113.9
  1998          95.9          108.4       117.9      126.0    117.5      110.1
  1999         106.7          108.8       111.1      130.5    145.5      113.1
  2000          92.4          123.2       108.1      146.6    124.7      113.4
  2001         121.0          144.0       130.5      142.6    176.8      109.9
           Growth in Highway Construction and Maintenance Costs
                        508 Compliant Presentation

Figure 10 - Commodity Input Cost Inflation in California (cont’d)
  2002         103.1        123.1         108.3       159.2       147.0   107.6
  2003         124.9        122.9         127.9       157.1        77.4   159.5
  2004         140.8        135.4         201.9       174.0       244.0   197.2
  2005         171.0        192.2         206.4       246.1       120.7   248.4
  2006         168.1        213.4         221.5       279.6       169.0   260.7

 Table 2 – Wages for Heavy and Highway Construction Versus
 Highway Cost Indices Percent Changes from 2003 through
 2005
                                                           Highway Cost
                                           Wages              Indices
 National:                                  6.5                 N/A
   FHWA-BPI                                 N/A                 22.6
   BHWY PPI                                 N/A                 26.4
 State:                                     N/A                 N/A
   California                               7.7                 80.6
   Colorado                                 3.0                 65.3
   Nebraska                                 7.2                 39.0
   New Hampshire                            2.6                 40.6
   South Carolina                           8.1                 48.2
   Texas                                    7.8                 47.2
   Washington                               9.1                 21.4



Figure 11 - Comparison of Growth in Commodities and
Other Major Costs
                                  Liability Worker's          Group
         Commodities Engineering Insurance   Comp             Health
  2003        2.17%       3.09%      3.54%    3.49%               N/A
  2004        8.49%       1.74%      2.68%    4.03%            6.40%
  2005       12.55%       1.09%      1.26%    1.71%            4.62%
  2006       10.79%       2.45%      0.98%    1.77%            3.50%
           Growth in Highway Construction and Maintenance Costs
                        508 Compliant Presentation

Figure 12 - Bituminous Concrete Pavement Costs
               Georgia       Utah      California Washington
    1997           100.0       100.0        100.0      100.0
    1998           105.3        86.5        107.5       99.2
    1999           116.0        94.0        111.3       91.0
    2000           127.4       113.3        125.1      101.1
    2001           146.6       120.2        121.7      102.1
    2002           117.7       105.2        135.8      106.9
    2003           120.1       115.2        134.0      110.9
    2004           152.2       128.5        148.5      129.5
    2005           154.0       155.5        209.9      136.0
    2006           232.6       206.0        238.5      182.2


Figure 13 - Reinforcing Steel Costs
           Georgia Nebraska Colorado          Utah   California Washington
  1997       100.0    100.0    100.0           100.0      100.0      100.0
  1998       104.9    104.4    111.1           103.2      111.5       96.1
  1999       136.6    102.7    120.0           104.8      105.0       88.2
  2000       139.0    102.5    104.4           104.8      102.2      100.0
  2001       134.1    101.5    111.1           104.8      123.4       80.4
  2002       141.5    102.9    111.1            98.4      102.4      105.9
  2003       131.7    101.2    122.2           100.0      121.0       98.0
  2004       185.4    136.7    184.4           162.9      190.9      168.6
  2005       209.8    138.4    213.3           171.0      195.2      178.4
  2006       231.7    138.2    204.4           164.5      209.5      192.2

Figure 14 - Structural Concrete Costs
           Georgia    Nebraska    Colorado      Utah     California   Washington
  1997       100.0        100.0       100.0      100.0        100.0         100.0
  1998         83.7       112.4       114.9       99.7        103.7          88.5
  1999       131.5        129.9       126.1      107.3        104.1         103.4
  2000       124.9        133.7       140.8       98.5        117.8          89.4
  2001       118.3        138.6       123.1      110.0        137.8         114.7
  2002       125.3        120.5       115.9      109.5        117.8         104.2
  2003       125.8        122.7       117.5      114.4        117.6         121.6
  2004       132.2        118.3       131.3      112.0        129.5         104.7
  2005       131.0        139.0       206.6      201.2        183.9         133.8
  2006       192.6        125.5       174.7      192.2        204.2         151.9
           Growth in Highway Construction and Maintenance Costs
                        508 Compliant Presentation


Exhibit B. States Contacted and Data Obtained
                                               Has an        Has
FHWA                             Contacted     Overall   Component      Length of
Region            State           by OIG         CCI      Price Data   Data Series
         Connecticut            No           N/A         N/A           N/A
         Maine                  No           N/A         N/A           N/A
         Massachusetts          Yes          No          N/A           N/A
         New Hampshire*         Yes          Yes         Yes           2000 – 2007
  1      New Jersey             No           N/A         N/A           N/A
         New York               Yes          No          N/A           N/A
         Rhode Island           No           N/A         N/A           N/A
         Vermont                Yes          No          N/A           N/A
         Puerto Rico            No           N/A         N/A           N/A
         Delaware               No           N/A         N/A           N/A
         District of Columbia   No           N/A         N/A           N/A
         Maryland               Yes          No          N/A           N/A
  3
         Pennsylvania           Yes          No          N/A           N/A
         Virginia               Yes          No          N/A           N/A
         West Virginia          No           N/A         N/A           N/A
         Alabama                No           N/A         N/A           N/A
         Florida                Yes          No          N/A           N/A
         Georgia*               Yes          No          Yes           1996 – 2006
         Kentucky               No           N/A         N/A           N/A
  4
         Mississippi            Yes          Yes         Yes           1988 – 2006
         North Carolina         Yes          Yes         Yes           1995 – 2006
         South Carolina*        Yes          Yes         Yes           1999 – 2006
         Tennessee              No           N/A         N/A           N/A
         Illinois               Yes          Yes         Yes           N/A
         Indiana                No           N/A         N/A           N/A
         Michigan               No           N/A         N/A           N/A
  5
         Minnesota              No           N/A         N/A           N/A
         Ohio                   Yes          Yes         Yes           2005 – 2006
         Wisconsin              Yes          Yes         Yes           1982 – 2006
         Arkansas               No           N/A         N/A           N/A
         Louisiana              No           N/A         N/A           N/A
  6      New Mexico             No           N/A         N/A           N/A
         Oklahoma               No           N/A         N/A           N/A
         Texas*                 Yes          Yes         Yes           1999 – 2006
         Iowa                   Yes          Yes         Yes           1986 – 2006
         Kansas                 No           N/A         N/A           N/A
  7
         Missouri               No           N/A         N/A           N/A
         Nebraska*              Yes          Yes         Yes           1998 – 2006
         Colorado*              Yes          Yes         Yes           1987 – 2006
         Montana                No           N/A         N/A           N/A
         North Dakota           No           N/A         N/A           N/A
  8
         South Dakota           Yes          Yes         Yes           1987 – 2006
         Utah*                  Yes          Yes         Yes           1990 – 2006
         Wyoming                No           N/A         N/A           N/A
              Growth in Highway Construction and Maintenance Costs
                           508 Compliant Presentation

Exhibit B. States Contacted and Data Obtained (cont’d)
 FHWA                         Contacted     Overall   Component      Length of
 Region            State       by OIG         CCI      Price Data   Data Series
             Arizona         No           N/A         N/A           N/A
             California*     Yes          Yes         Yes           1987 – 2006
    9
             Hawaii          No           N/A         N/A           N/A
             Nevada          No           N/A         N/A           N/A
             Alaska          No           N/A         N/A           N/A
             Idaho           No           N/A         N/A           N/A
    10
             Oregon          Yes          Yes         Yes           1987 - 2006
             Washington*     Yes          Yes         Yes           1990 - 2006
*States in our sample.
